U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

SFPP, L.P. v. Federal Energy Regulatory Commission, et al,
S.Ct. No. 20-1484

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 19,
2021, and placed on the docket on April 22, 2021. The government’s response is due on May
24, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 23, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1484
SFPP, L.P.
FERC

CHARLES F. CALDWELL
CALDWELL BOUDREAUX LEFLER PLLC
1800 WEST LOOP SOUTH
SUITE 1680
HOUSTON, TX 77027
713-357-6228
CCALDWELL@CBLPIPELINELAW.COM

